<html>
<title> - GRADING COUNTERTERRORISM COOPERATION WITH THE GCC STATES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


        GRADING COUNTERTERRORISM COOPERATION WITH THE GCC STATES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2018

                               __________

                           Serial No. 115-128

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                                                                 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-967PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d5a4d527d5e484e495558514d135e525013">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia

                              ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
ADAM KINZINGER, Illinois             BRENDAN F. BOYLE, Pennsylvania
LEE M. ZELDIN, New York              TULSI GABBARD, Hawaii
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
ANN WAGNER, Missouri                 THOMAS R. SUOZZI, New York
BRIAN J. MAST, Florida               TED LIEU, California
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Katherine Bauer, Blumenstein-Katz Family Fellow, The 
  Washington Institute for Near East Policy......................     8
David Andrew Weinberg, Ph.D., Washington representative for 
  international affairs, Anti-Defamation League..................    27
Ms. Leanne Erdberg, director, Countering Violent Extremism, U.S. 
  Institute of Peace.............................................    63

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Katherine Bauer: Prepared statement..........................    11
David Andrew Weinberg, Ph.D.: Prepared statement.................    29
Ms. Leanne Erdberg: Prepared statement...........................    65

                                APPENDIX

Hearing notice...................................................    90
Hearing minutes..................................................    91
Written responses from Ms. Leanne Erdberg to questions submitted 
  for the record by the Honorable Dina Titus, a Representative in 
  Congress from the State of Nevada..............................    92

 
        GRADING COUNTERTERRORISM COOPERATION WITH THE GCC STATES

                              ----------                              


                        THURSDAY, APRIL 26, 2018

                     House of Representatives,    

         Subcommittee on Terrorism, Nonproliferation, and Trade

                                  and

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ted Poe (chairman 
of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitations in the rules.
    Our historic relationship with the Arab Gulf states is 
crucial. The ties we maintain allow us to project power to 
certain threats like Iran and secure key shipping lanes for 
global commerce while providing stability in a chaotic region. 
Our Gulf partners have made clear that they value our strong 
alliance with the United States. And the United States values 
and wants to continue to be a partner with them.
    But our relationship has not always been perfect. The 9/11 
attacks were a tragic wake-up call to a dangerous idea that we 
had long ignored. Sunni extremism established strong roots 
across the Middle East, North Africa, and South Asia. The 
intolerant and violent strain of Islam was largely able to 
spread so widely because it was funded and supported by some of 
our Gulf allies. While GCC states were benefitting from 
security and stability provided by the U.S., they still 
fostered radical ideas that sought to target and kill 
Americans. It is no coincidence that among the 19 hijackers 
from the 9/11 attacks, 17 came from the United Arab Emirates 
and Saudi Arabia.
    In part, al-Qaeda, led by Saudi, Osama bin Laden did this 
deliberately to damage the GCC alliance with the United States. 
The Saudi monarchy embraced--the embracement of Wahhabi 
ideology produced generations of young Saudis who despised the 
West and held hateful views of other religions. In fact, ISIS 
uses Saudi textbooks.
    After 9/11, the Kingdom and the rest of the GCC states 
pledged cooperation with the U.S. to fight terrorism and, to 
Saudi Arabia's credit, is doing more to stop terrorism. 
However, wealthy financiers and hateful preachers continued to 
operate across the GCC. For years, many of our Gulf allies 
tried to play both sides of the War on Terror. They acted both 
as arsonists and firefighters. While the U.S. military launched 
airstrikes against terrorists in the region from the Gulf air 
bases, money and recruits flowed to terrorists from the same 
Gulf countries.
    Ultimately, not George Bush, nor Barack Obama, nor a Donald 
Trump can convince young Muslims that al-Qaeda or ISIS's 
version of Islam is the wrong one. An American President, 
regardless of their party affiliation, will not ever be able to 
effectively argue that jihad against the West is not the answer 
to the problems in the Middle East. It is only the leaders of 
the Muslim world who can make that argument.
    In recent years, we have seen progress by the Gulf states 
toward tackling the sources of extremism within their borders. 
They have recognized this is not just the United States' first, 
but their own security is at stake. The Saudis have infiltrated 
terrorist groups to thwart attacks on the West and detained 
radical clerics who once incited thousands to join ISIS or al-
Qaeda. The UAE is leading the region in developing messaging to 
counter violent extremism and has prioritized targeting al-
Qaeda in Yemen. Bahrain is host to the region's Financial 
Action Task Force and amended its charity law to closely 
monitor terrorism and enact harsh penalties on violators.
    Kuwait has intensified its charity monitoring and outlawed 
fundraising for terrorist organizations online. Meanwhile, Oman 
remains a haven for tolerance and moderate Islam, effectively 
preventing terrorists from using its territory for fundraising 
or recruitment. Even Qatar signed a memorandum of understanding 
with the U.S. last year to cooperate on counterterrorism and 
has created terrorist designation lists. Trust is finally being 
restored.
    But there is a lot of work to be done. Qatar still harbors 
Hamas operatives and al-Qaeda fundraisers. The Saudis still 
publish intolerant material in their textbooks that glorify 
jihad and incite hatred and violence. Kuwait still has 
designated terrorists living freely in their borders. Oman 
remains suspiciously tied to the region's number one state 
sponsor of terrorism; of course, that is Iran. And reports of 
arms smuggling through Oman to Yemen's Houthi rebels persist. 
No GCC member is contributing enough to prevent ISIS from 
reemerging in Syria and Iraq. The Saudi-led coalition is overly 
focused, in my opinion, on Iran's meddling in Yemen while al-
Qaeda in the Arabian Peninsula survives in the chaos.
    So, we need our Gulf partners to aggressively and 
proactively combat extremism across the region, and not wait 
for the U.S. to take the lead. The region belongs to our Gulf 
partners, and they should be taking the lead in defeating 
terrorism. All the drones and special forces in the world 
cannot destroy an idea that is deeply rooted. The fight against 
terrorism must start and end with the ideals and not on the 
battlefield. Treating the symptoms is not enough to stop the 
underlying disease. And this hearing is a candid look at 
terrorism in the Gulf states. And that is just the way it is.
    I will yield to the ranking member on the Terrorism, 
Nonproliferation, and Trade Subcommittee, Mr. Keating from 
Massachusetts.
    Mr. Keating. Chairs Poe and Ros-Lehtinen, Ranking Member 
Deutch, thank you for convening the hearing today and joining 
us.
    We recently had a hearing in the Terrorism, 
Nonproliferation, and Trade Subcommittee on countering violent 
extremism and the role of women. Much of that hearing focused 
on the numerous ways that we can change how we empower 
communities and governments to get to the heart of violent 
extremism by capitalizing on the people and resources we have 
but, frankly, are not taking full advantage of.
    We are presented with an exceedingly challenging 
environment for addressing terrorism threats in and emanating 
from the Gulf. However, I refuse to believe that we are 
helpless to do anything about it and that we are confined to 
the geopolitical maneuverings of foreign actors. We have far 
too long thought about terrorism in the traditional Whac-A-Mole 
sense. But as we learn more about the drivers of extremism I 
think we have actually come away with a better understanding of 
how many different ways we can positively impact this problem: 
By empowering women to be meaningful actors in identifying and 
addressing early signs of extremism and radicalization in their 
communities; by strengthening the rule of law and grievance 
mechanisms so that there are formal pathways for citizens to 
make their concerns heard; by improving information sharing at 
the local level through community policing, and at the regional 
and international levels so that the governments can work 
better together to eliminate terrorist financing, take down 
terrorist networks, stop foreign fighter travel. There are a 
lot of tools at our disposal. And it is sheer negligence not to 
use them.
    This reality came into relief in the Boston Marathon 
bombing which this month marked the fifth anniversary of that 
attack. Terrorists don't emerge in these instances without 
external support, be it inspiration for an attack, training, 
financing, or involvement early on in the radicalization of 
vulnerable individuals. We need to do everything we can to 
stamp out all streams of support for terrorism because 
terrorist attacks do not happen in a vacuum.
    The tragic deaths in Boston during the marathon, which is 
an inspiring and proud day every year for the runners, their 
families, and all those cheering them on the sidelines and 
watching them at home, these attacks don't happen in a vacuum. 
There were a lot of lessons learned that emerged from that 
attack and others that we need to be implementing fully today.
    Combating terrorism abroad does mean saving lives at home. 
And while it is my hope that we have learned from the past, I 
think we can do much better. And we can encourage our allies in 
the Gulf to do much better. The Gulf is a serious threat 
environment for terrorism. The terrorist threats from al-Qaeda 
and ISIS operating in the Gulf is compounded by destabilizing 
engagement in the region by Iran and the dire conflict that 
exists in Yemen.
    If we fail to work strategically with our allies and 
partners and with our own State Department, intelligence 
community, Treasury Department, and with all the relevant 
agencies and actors across our Government working in the region 
to mitigate these threats, the question of the next terrorist 
attack here at home will just be a question of when. And that 
is unacceptable because we can do this work. We can support and 
invest in a strong State Department to navigate and negotiate 
the tensions in the region.
    At the end of the day our counterterrorism efforts work 
best when everyone is focused and committed and not distracted 
by unproductive disputes. We can do more to mitigate the 
humanitarian crisis in Yemen and to do our part in welcoming 
refugees. With our robust State Department, and with our allies 
working around the world we can coordinate our response to the 
conflict in Yemen and act swiftly so we can finally move more 
aggressively toward stabilization efforts and eradicating the 
terrorist networks there.
    Terrorists benefit from the ongoing chaos and conflict, And 
we are all ill-served by falling into the trap of thinking that 
the civil war and the humanitarian crisis on the other side of 
the world cannot hit us back here at home.
    Across the region what can we do to shut down terrorist 
financing networks? How can we compel the best efforts by our 
partners in the region to once and for all track and eliminate 
these funding streams and hold all of those accountable for 
their crimes?
    Lastly, one of the greatest assets we have are the programs 
being carried out by our State Department and USAID on better 
community policing, strengthening the rule of law and civil 
society, and expanding opportunities for economic empowerment, 
improving access to education and job training, turning down 
the incubators where the seeds of radicalization are sown. This 
is what we are here to discuss today.
    I thank our witnesses for being here. And I look forward to 
hearing your recommendations going forward, how we can improve 
the situation, make the world safer, make our country safer.
    With that, I yield back.
    Mr. Poe. I thank the gentleman from Massachusetts.
    The Chair now recognizes the chairman emeritus, the 
professional Ileana Ros-Lehtinen in foreign affairs from 
Florida, the chair of the Middle East and North Africa 
Subcommittee. And she can speak as long as she wants to.
    Ms. Ros-Lehtinen. I won't take up that much time. But now 
that you have given me that opportunity.
    But thank you, Chairman Poe. Thank you, Ranking Member 
Keating. Congressman Deutch and I want to thank both of you and 
your staff for working with us and our teams to hold this 
hearing jointly today.
    As we know, the rift between Qatar and the other Gulf 
states has in many ways shined a necessary light on Doha's 
support for certain groups and ideologies in the region, many 
of which have ties to terrorist organizations. And to be sure, 
the criticism of Qatar is well deserved. As former Deputy CIA 
Director David Cohen said in 2014, Qatar has openly financed 
Hamas, is supporting extremist groups operating in Syria, is a 
permissive terrorist financing environment, and has actively 
undermined regional stability.
    From Syria, to Libya, to Sudan, Qatar's support for the 
Muslim Brotherhood and other more extremist organizations is a 
driver of that instability, complicating and setting back much 
of what the United States and our partners are trying to 
achieve. To see how Qatar fuels extremist violence in the 
region one need only look at its state-funded Al-Jazeera and 
the religious incitement that Qatar is condoning and 
broadcasting all over the Arab world. Understandably, Qatar's 
neighbors are upset with Doha's foreign policy and are pushing 
for change, which we have begun to address through our 
strategic dialogue and our memorandum of understanding with 
Qatar.
    However, as much as the rest of the Gulf countries want to 
single out Qatar, it must be said that other GCC members, 
including some of our most trusted and important partners do 
not have the best record on these issues either. Our friends in 
Saudi Arabia, after years of cultivating the political favor of 
religious extremists within its borders, have now taken steps 
to moderate the brand of Islam that the Saudis are famous for.
    But exactly how much the crown prince can or will reverse 
the behavior of Saudi citizens, including those in the royal 
family, remains to be seen. Never mind improving the Kingdom's 
still abhorrent human rights record and reforming an 
educational curriculum that still promotes intolerance of both 
Jews and Christians.
    On a more practical level, all the GCC countries still have 
room to improve on fighting terrorist financing and money 
laundering, from Qatar and Kuwait, to Bahrain and Oman, to 
Saudi Arabia and the UAE. In the State Department's latest 
country report on terrorism not a single GCC country escapes 
criticism as terrorists' financiers continue to operate, 
charitable donations still reach terrorist groups, and 
religious incitement goes unaddressed.
    The amount of work left to do on these issues highlights 
just how big the challenge is before us, no matter how much 
cooperation we are getting from GCC partners in other areas. 
Since 9/11 the United States has poured billions of dollars, 
billions into counterterrorism efforts. And for the most part, 
our national security agencies and their partners have been 
enormously successful shutting down operation after operation, 
many of which will never be reported.
    What we have been less successful with is putting a stop to 
the root cause of terrorism, the violent ideologies, and 
associated economic factors that drive so many men and women to 
commit acts of terror in the first place. And when our partners 
are not fully committed, whether by failing to close gaps in 
their terrorist financing laws, or end religious incitement or 
reverse repression, both inside and outside their borders, then 
countering terrorism is made that much harder.
    As we look to the future, I am encouraged by a lot of the 
progress, albeit slow, that we are seeing in our GCC partners. 
And I am hopeful that we are going to see even greater 
commitment by our partners in the years to come. Not just on a 
military level but by leading by example, by promoting the kind 
of human rights, the kind of tolerance, and economic well-being 
that are so desperately needed in the Middle East.
    So, thank you, Chairman Poe. I look forward to hearing from 
our witnesses and any recommendations that they may have for 
increasing counterterrorism cooperation in the Gulf, and 
specifically what we can do in Congress to help. Thank you, Mr. 
Chairman.
    Mr. Poe. I thank the gentlelady.
    The Chair now recognizes the ranking member on the Middle 
East, North Africa Subcommittee, Mr. Ted Deutch, also from 
Florida, for his opening statement.
    Mr. Deutch. Thanks to Chairman Poe and to you and Chairman 
Ros-Lehtinen, and thanks for calling this hearing. This is an 
important issue and I look forward to the discussion. I also 
want to thank Ranking Member Keating for his leadership. And 
thanks to our panel of expert witnesses for your time and 
insight.
    The threat of terrorism emanating from the Gulf states is 
clearly a very real concern. The high number of ISIS recruits 
and supporters in GCC countries demonstrates the seriousness of 
the radicalization in the region. However, we must remember 
that ISIS is only the most recent in a long line of radical 
Islamic terror groups.
    ISIS's conventional defeat in Iraq and Syria will not stop 
support of its ideology around the world, especially in the 
Gulf region. Our counterterrorism efforts cannot focus on 
security cooperation alone. They are incomplete without a 
comprehensive effort to counter violent extremism and address 
the root causes, the drivers of terrorism. And while it is 
perhaps more difficult to measure success with these programs 
than it is to quantify territory controlled or number of 
fighters killed, they are a critical part of a counterterrorism 
strategy. And we have got to press our allies to work together 
on these efforts with the same commitment that they have to our 
security cooperation.
    Terror groups are increasingly propagating their dangerous 
message to vulnerable individuals through social media and 
online platforms. Efforts in the realms of education, through 
religious institutions, and government outreach can be powerful 
in fighting dangerous ideologies and fighting back against 
terrorist recruitment. Populations in GCC countries are 
especially vulnerable to this online radicalization.
    Fundraising and operational plotting go hand-in-hand with 
these online mechanisms, presenting what is a complex and fluid 
obstacle for GCC states to tackle. The GCC countries must be 
diligent in facing these challenges. However, counterterrorism 
and security concerns cannot be used by states as a reason to 
silence the voices of political opposition and curtail freedom 
of speech. Human rights and combating corruption must not be 
overlooked when applying the strongest counterterrorism 
policies.
    Likewise, the Gulf states must ensure its official 
messaging is consistent with their stated commitment to 
countering violent ideologies. State-sponsored media, like Al-
Jazeera, cannot be used to spread messages of violence. And 
speakers who endorse violent action wherever they speak, 
whether in the public square or the public mosque, any violent 
actions spoken against perceived enemies of Islam must not be 
tolerated by the GCC.
    I am deeply concerned that U.S.-GCC counterterrorism has 
also been weakened by the current rift among the GCC countries. 
Unity in this region is critical to our efforts to counter 
Iran's destabilizing influence. And unity will be even more 
vital should the administration choose to walk away from the 
nuclear deal. The United States will need our partners to stand 
together to deter the Iranian aggression that threatens all of 
our interests.
    It does the United States no good to choose sides in this 
rift. We must work to solve the current crisis, and, in the 
process, strengthen the efforts of all GCC countries to fight 
terrorism. The GCC countries host U.S. troops and critical 
security infrastructure. We are all safer when we are working 
together. I believe it is in the region's best interest to 
counter all brands of terrorism from Hamas to al-Qaeda, ISIS to 
Hezbollah. And I know that some of our allies view these groups 
differently. But we must be clear in our expectations of those 
who want to be partners with the United States.
    The GCC countries should be working together, should find 
strength in unity in combating these violent ideologies that 
threaten long-term state stability. It does nothing to 
strengthen regional security to only point fingers and claim 
the terrorism supported by one country is worse than the 
terrorism supported by another country. Let's agree, terrorism 
is bad, period. And we expect our allies to fight it, not fund 
it.
    Combating terror financing in the Gulf region is a key 
component of our counterterrorism strategy. There is 
substantial room for improvement in all of the Gulf countries. 
The United States has made clear that we will work with our 
allies to help them get their terror finance laws in line with 
ours, we will share technical expertise and information, but we 
expect the governments will pursue terror financiers to the 
full extent of the law.
    I look forward to our witnesses addressing the terror 
finance piece in greater detail.
    Finally, I hope that today will help us understand where 
the current gaps in our own counterterrorism programming as 
well as that of our allies exist, and just how we might 
strengthen our joint efforts to combat it.
    I appreciate the time, Mr. Chairman. I yield back. Thank 
you.
    Mr. Poe. I thank the gentleman from Florida.
    The Chair will recognize other members for 1 minute if they 
wish to make an opening statement. The Chair recognizes the 
gentlelady from Missouri, Ambassador Wagner, for 1 minute.
    Mrs. Wagner. I thank you, Mr. Chairman and Chairwoman, for 
your courtesy and for this hearing today.
    I had the opportunity just last week to ask Ambassador 
Satterfield, Assistant Secretary for Near Eastern Affairs, how 
our diplomatic corps is strengthening our partnerships with 
Gulf states and working to resolve tensions between Qatar and 
its neighbors. I appreciate very much the chance to revisit 
this critical issue today. It behooves the United States to 
foster excellent working relationships with and among Arab 
states as we counter the threats from Iran, Syria, and 
terrorist groups.
    And to add on to our colleague Mr. Deutch and what you had 
to say, I spent the better part of 4 years in a tiny little 
country as U.S. Ambassador of Luxembourg fighting directly 
terrorist financing that was being moved and laundered through 
and into this region. So I very much look forward to your 
thoughts and discussions on this area. So I thank you for your 
indulging me, Mr. Chairman.
    Mr. Poe. I thank the gentlelady.
    The Chair recognizes the gentleman from Rhode Island, Mr. 
Cicilline.
    Mr. Cicilline. Thank you, Chairwoman Ros-Lehtinen and 
Ranking Member Deutch, and Chairman Poe and Ranking Member 
Keating for convening this important joint hearing on the 
Middle East, North Africa, and Terrorism, Nonproliferation, and 
Trade Subcommittees.
    Particularly since the terrorist attack of September 11, 
2001, we have relied on cooperation from our allies and 
partners throughout the world to work with us on 
counterterrorism operations through military support, 
intelligence sharing, and increased action against terrorist 
financing. Our partners in the Persian Gulf have played a 
critical role in these efforts in many areas. And in many of 
these nations, cooperation and partnership with the United 
States has continued to improve.
    While I hope that this will be part of today's discussion, 
I also hope that we will be able to address ways in which Gulf 
Cooperation Council states can continue to improve 
counterterrorism activities, in ways in which we can combat the 
roots of extremism in the region, ways in which we can work 
together to prevent terrorist organizations from carrying out 
horrific acts around the world.
    I look forward to today's discussion and to hearing from 
our witnesses today. And I yield back the balance of my time.
    Mr. Poe. I thank the gentleman. The Chair recognizes the 
gentleman from Pennsylvania, Mr. Boyle.
    Mr. Boyle. Thank you, Mr. Chairman.
    I will just be brief. One of the things that I am most 
interested in this hearing today is the extent to which, if 
any, the intra-GCC rift that has emerged on the Arabian 
Peninsula affects our overall joint counterterrorism efforts. 
So if they weren't already planning to do so, perhaps our 
panelists might be able to address that point when they are 
speaking.
    Thank you.
    Mr. Poe. I thank the gentleman.
    The Chair will now introduce each of our witnesses and hear 
from them. And then the members will question them.
    Ms. Katherine Bauer is the Blumenstein-Katz Family Fellow 
at The Washington Institute for Near East Policy, and former 
Treasury official who served as the Department's Financial 
Attache in Jerusalem and in the Gulf.
    Dr. David Weinberg is the Anti-Defamation League's 
Washington representative for international affairs. Previously 
he was a senior fellow at the Foundation for Defense of 
Democracies studying the Gulf.
    Mrs. Leanne Erdberg is the director of Countering Violent 
Extremism at the U.S. Institute of Peace. She previously served 
on the National Security Council and the State Department.
    Ms. Bauer, we will start with you. You have 5 minutes. When 
the red light comes on you know the drill, stop. So you are 
recognized.

   STATEMENT OF MS. KATHERINE BAUER, BLUMENSTEIN-KATZ FAMILY 
     FELLOW, THE WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Ms. Bauer. Thank you, Chairman Poe and Ros-Lehtinen, 
Ranking Member Keating and Deutch, distinguished members of the 
subcommittee. Thank you for the opportunity to testify today on 
GCC States counterterrorism efforts.
    The Arab Gulf States are important U.S. counterterrorism 
partners. Since 9/11, the United States has made great, albeit 
often uneven strides, in working with our various partners in 
the GCC. And counterterrorist financing has been at the heart 
of such cooperation. It remains essential today. The central 
role of counterterrorist financing is reflected both in the 
fact that it is among the grievances that has fueled the rift 
between Qatar on the one hand, and Saudi Arabia, the United 
Arab Emirates, Bahrain, and Egypt on the other, and because of 
the increasing complexity of the terrorist threat.
    Years of conflict in Syria, Iraq, Yemen, and Libya have 
provided fertile ground for terrorist groups and extremist 
ideologies. Such groups have sought and achieved safe havens in 
weak and failed states from which to recruit, train, plot, and 
conduct attacks, as well as to extract resources and aggregate 
funds. Because of this evolution in terrorist financing 
methodologies, disrupting foreign sources alone will not 
bankrupt such groups.
    In order to achieve durable counterterrorism successes, 
counterterrorist financing must proceed alongside efforts to 
counter extremist ideologies and promote good governance, areas 
where the GCC states also have an important role to play. Even, 
and especially so, continuing to build partner capacity to 
address systemic vulnerabilities to illicit finance will make 
it harder for terrorist organizations to move and store funds.
    Some GCC states have taken greater ownership of such issues 
in recent years due to domestic and foreign threats, as well as 
changing dynamics in the global financial system. As they do, 
the United States should continue to press the GCC states to 
comply with international standards for anti-money laundering 
and counterterrorist financing, promulgated by the Financial 
Action Task Force, to include transparency and due process in 
the application of targeted financial sanctions.
    Since the Gulf rift began 10 months ago, terror finance 
concerns have figured prominently. But it is unlikely that 
resolving these concerns alone would end the crisis. 
Nonetheless, the U.S. should continue to work with Qatar under 
the terms of the MOU on Counterterrorism Cooperation signed in 
July, as well as to work to mitigate the impact of the rift on 
counterterrorism and other security cooperation.
    The rift has focused attention on Qatar's counterterrorist 
financing deficiencies, with the result that others in the 
region have arguably been given a pass. In particular, Kuwait, 
where a number of U.N.-designated terrorist financiers continue 
to operate according to the State Department's most recent 
country reports on terrorism. In reality, each Gulf state faces 
its own deficiencies, vulnerabilities, and barriers to action 
against terrorist financing.
    These are hard and politically sensitive issues. The scope 
of the challenge facing Saudi Arabia is perhaps greater than 
any other Gulf state. Both ISIS and al-Qaeda continue to call 
for attacks against the Kingdom. And despite serious efforts on 
the counterterrorist financing front, Saudi individuals likely 
continue to serve as a source of funding for terrorist groups.
    The UAE has inherent vulnerabilities to terrorist and other 
illicit financing due to its role as a regional commercial and 
financial hub.
    Bahrain has among the most technically competent anti-money 
laundering and counterterrorist financing regimes in the Gulf. 
However, Manama is sometimes overzealous in its application of 
such laws and regulations against its local Shia population, 
risking the credibility of Bahrain's counterterrorism efforts 
overall.
    Qatar does deserve its share of the blame. But the number 
of deep pocket terrorist financiers and facilitators in Qatar 
is ultimately relatively small. Qatar has taken some limited 
action against individual terrorist financiers, freezing 
assets, imposing travel bans, shutting down accounts, and even 
shutting down a charity tied to al-Qaeda in Syria.
    But in all these instances the country acted only in 
response to considerable U.S. pressure and was remarkably 
reluctant to publicly take credit for successes. Other actions 
have mixed or unclear results, such as stalled prosecutions and 
the omission of U.N. designated Khalifa al-Subaiy from their 
first national terrorist list issued last month.
    Taken together, one has to wonder, as the Treasury official 
did last fall, whether Qatar has made the kind of ``fundamental 
decisions on combating terror finance that would make the 
country a hostile environment for terrorist financiers.''
    Before I conclude, I just want to recognize Congresswoman 
Wagner's intervention regarding the importance of diplomacy. I 
couldn't agree more. And I look forward to discussing the role 
of sanctions diplomacy in the Gulf in particular.
    Thank you again for the opportunity to testify today. And I 
look forward to your questions.
    [The prepared statement of Ms. Bauer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Ms. Bauer.
    Dr. Weinberg, welcome back. You have 5 minutes for your 
opening statement.

     STATEMENT OF DAVID ANDREW WEINBERG, PH.D., WASHINGTON 
   REPRESENTATIVE FOR INTERNATIONAL AFFAIRS, ANTI-DEFAMATION 
                             LEAGUE

    Mr. Weinberg. Chairman Poe and Ros-Lehtinen, Ranking 
Members Keating and Deutch, and distinguished members of the 
subcommittees, thank you on behalf of the ADL for this chance 
to testify here today. I will present an abridged version of my 
written remarks.
    Nearly all six monarchies of the Gulf Cooperation Council 
have been victims of terrorist attacks, and each one hosts U.S. 
bases. Because this region is of particular importance for 
terror finance, I will focus on that issue, along with how well 
the GCC states are doing at publicly designating terrorist 
groups for financial and other countermeasures.
    This area is home to roughly half the Middle East's super 
rich, as well as Wahhabism, an austere brand of Islam with 
historically intolerant teachings about non-Muslims. Thus, the 
majority of the millions of dollars raised by al-Qaeda's core 
leadership and deep-pocket donors appears to have come from the 
Gulf. Likewise, Hamas operatives in the GCC have raised or 
laundered tens of millions. And South Asian terror groups such 
as the Taliban have also raised any millions in the Gulf.
    Early last year a just-retired U.S. Treasury official 
confirmed the presence of designated terror financiers 
operating openly in Qatar and Kuwait. Then, last June, Saudi 
Arabia, the UAE, Egypt, and Bahrain sanctioned Qatar for 
supporting Islamist extremists, including tolerating terror 
financiers. At that time, as Ms. Bauer here has written, Qatar 
had prosecuted just five terror funders, and not a single one 
was serving time on a conviction in Qatar as yet.
    Compare that with Saudi Arabia, which has convicted 
hundreds for funding terrorist groups, primarily al-Qaeda, and 
frozen over 30 million Euros in suspect funds. Since then, 
Qatar says it re-arrested most of these men and is retrying 
them. Yet, one was spotted just this month at his son's 
wedding, along with Qatar's Prime Minister.
    Meanwhile, the Web site of Kuwait's top public university 
appears to list three men as faculty members who are under U.S. 
sanctions on charges of funding al-Qaeda, one of whom even used 
students to courier funds to al-Qaeda according to the U.S. 
Treasury.
    There is much the U.S. can do to address these problems: 
First, the U.S. needs Ambassadors in Saudi Arabia, Qatar, and 
the UAE. The U.S. should also seek to resolve the Gulf 
standoff, but only on terms that verifiably help to end the 
impunity of terror financiers. In part, that means greater 
transparency about the U.S.-Qatar Terror Finance Agreement, 
including its shortcomings.
    Second, U.S. officials should work with our Gulf allies to 
publicly designate all terrorist groups. Oman and Kuwait have 
not even issued public lists of this sort. Qatar issued its 
closest thing to such a public list last month, but it omitted 
Hamas, al-Qaeda, most of the Islamic State, and a major local 
al-Qaeda financier. Saudi Arabia, the UAE, and Bahrain have all 
issued public lists but with a few shortcomings. Not a single 
GCC state has publicly designated Hamas or Palestinian Islamic 
Jihad as terrorists.
    Just as the House unanimously passed Ranking Member 
Deutch's bill urging the EU to sanction Hezbollah, Congress 
should do the same with the Gulf states and Hamas. Similarly, 
the U.S. must persuade more Gulf allies to publicly ban the 
main South Asian terrorist groups.
    Third, the U.S. should encourage and advise the GCC states 
on imposing sanctions to deter foreign countries from enriching 
Iran's terror-sponsoring IRGC.
    Fourth, Congress can urge Foggy Bottom and the new 
Secretary of State to weigh naming Qatar under Section 6(j) of 
the Export Administration Act as tolerating terrorist 
operatives on its soil. This would require licenses for 
sensitive exports that must be kept from terrorists' hands.
    Likewise, Congress should pass Congressman Mast's 
Palestinian International Terrorism Support Prevention Act 
which ADL endorsed last year.
    Fifth, the U.S. should indict more terrorists and seek 
their extradition. Last year, the U.S. unsealed charges against 
an accomplice of the Sbarro Pizzeria bombing in Jerusalem that 
killed or injured nine Americans in 2001. Qatar is evidently 
hosting a mastermind of that attack, Hussam Badran, who could 
be targeted for singular U.S. legal action. You could write the 
Justice Department a letter on this tomorrow.
    Sixth, the U.S. should do more to discourage government 
ransoms to terrorists, including, time and again, reportedly by 
Qatar, and to a lesser extent, in the past by Oman. As Chairman 
Poe has written, a year has passed since the Executive Branch 
missed a legal deadline to report which governments are 
believed to have facilitated terrorist ransoms. Congress should 
keep pressing this point and pass legislation making this 
reporting regular.
    Lastly, the U.S. must work intensively with Gulf partners 
to end incitement in state-backed media outlets, by state-
backed religious officials, and in state textbooks. Incitement 
of this sort is particularly problematic in broadcasts by the 
state-backed Qatari television network Al-Jazeera; in sermons 
at Qatar's state-controlled Grand Mosque, carried on official 
Qatari media; and in current Saudi state textbooks.
    ADL is, therefore, endorsing judicious legislation by 
Chairman Poe and Ranking Member Keating on addressing Saudi 
textbooks.
    Additionally, I can provide detailed examples for any of 
these kinds of state-backed incitement during Q&A if that would 
be helpful.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Weinberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Dr. Weinberg.
    Ms. Erdberg, the Chair recognizes you for 5 minutes.

 STATEMENT OF MS. LEANNE ERDBERG, DIRECTOR, COUNTERING VIOLENT 
               EXTREMISM, U.S. INSTITUTE OF PEACE

    Ms. Erdberg. Thank you, subcommittee Chairs Poe and Ros-
Lehtinen, Ranking Members Keating and Deutch, and members of 
the subcommittees. Thank you for the opportunity to testify.
    I will summarize my remarks, which cover two main themes: 
The first, GCC progress to date; and the second, future 
recommendations.
    Since the September 11 attack, GCC counterterrorism 
efforts, as my co-panelists have noted, have been varied. But 
that should not discount the sincere progress in several key 
areas that I hope will continue.
    The first is on rehabilitation and reintegrating former 
terrorists back into society. This has long been a focus 
notably of Saudi Arabia, but also Bahrain, Kuwait, and the UAE. 
Disengagement and deradicalization programs are only growing in 
importance as countries grapple with the return of foreign 
terrorist fighters.
    The second is on religious engagement. Religious clerics in 
Saudi Arabia and other GCC nations have issued numerous fatwas 
denouncing terrorism and condemning ISIS. Ministries of 
religion are actively reducing the reach of hardline clerics. 
And GCC countries sponsor several initiatives on religious 
topics, such as the UAE's support for the Forum for Promoting 
Peace in Muslim Societies.
    The third concerns counterterrorism finance, which has been 
well covered by my co-panelists.
    The fourth is on military operations. As part of the 
Coalition to Defeat ISIS, as well as independently, GCC 
militaries capture and kill terrorists on the battlefield, and 
they provide training to other nations.
    And lastly, GCC countries are participating in leading 
several international counterterrorism and CVE efforts. To name 
a few, the UAE helped to establish the Hedayah Center, a CVE 
Center of Excellence located in Abu Dhabi.
    Qatar has donated generously to the Global Community 
Engagement and Resilience Fund, which is a public-private 
partnership devoted to funding community-level initiatives that 
address violent extremism.
    And Saudi Arabia's voluntary contribution has enabled the 
United Nations to launch its own counterterrorism center 
devoted to these topics.
    But these discrete areas of progress have been unable to 
stem the tide of terrorism. Every day terrorists take innocent 
lives, they spew a hateful, violent vision of this world, and 
yet they have new recruits that are willing to die for their 
cause. That is precisely why we of the United States and GCC 
countries must do more to prevent young people from turning to 
terror in the first place. I would like to focus on a couple 
concrete, practical areas that are in deep need of future 
progress.
    The first, how do we know what works? We have to turn to 
research. It can provide outsiders and locals alike with the 
data and information they need to make meaningful progress.
    The second area starts with recognizing that we cannot 
simply message away the attraction of belonging to a community, 
and the commitment to be on a moral mission to resist 
injustice. What we can do is give people an opportunity to be 
part of a larger cause, create meaningful social bonds in 
service of a mission, and give them the dignity of ownership 
through the proven power of nonviolent action and organizing.
    The third is to unleash the power of religious figures far 
beyond merely challenging religious discourse. Instead, we need 
to start seeing them as key contributors to addressing 
community needs that may not be--appear to be religious in 
nature.
    The fourth concerns the security sector. When security 
forces fail to protect their citizens from threats, perpetuate 
cycles of abuse and corruption, or act with impunity, 
terrorists take these injustices to sow distrust and radicalize 
new recruits. On the other hand, police can be incredibly 
valuable in preventing radicalization by strengthening the 
trust of the people they serve, and tangibly improving the 
security and circumstances of their communities.
    The last, and the subject of the subcommittee's hearing 
last month, is to empower women and encourage their 
participation more fully as contributors to efforts that 
counter violent extremism.
    In sum, preventing the advent of the next ISIS must go 
beyond countering the propaganda-filled messages, killing 
terrorist leaders, and addressing financial flows. The United 
States should encourage GCC partners to empower the 
communities, civil society, municipal authorities, and local 
practitioners that are on the front lines of this challenge 
every day. And it is time to demonstrate to the generations of 
youth across the Middle East that they have a stake in their 
future and their human dignity matters.
    We can build our collective success through sustained U.S. 
leadership, close partnership with allies, and a shared 
commitment to end this scourge together.
    Thank you for the opportunity to testify. And I look 
forward to your questions.
    [The prepared statement of Ms. Erdberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you for your testimony. I thank all of the 
panelists for your excellent insight.
    Now we will allow members to ask questions. The Chair will 
yield its time, without objection, to the gentlelady from 
Florida and recognize her for her questions.
    Ms. Ros-Lehtinen. Thank you so much. I don't know why you 
are buttering me up. I fear, I fear tomorrow. But thank you, 
Chairman Poe.
    In my opening statement I mentioned that despite a lot of 
success in stopping terrorist operations since 9/11 we still 
have a long way to go in getting at the root causes of 
terrorism. And I am hopeful that we are going to start seeing 
more of a commitment from the Gulf in that to this end.
    Two questions. Can you share some specific examples of our 
Gulf partners tackling the root causes of terrorism?
    And, secondly, how can Congress push the Gulf to take more 
of a leadership role in this area? Or is that something that we 
should not be involved in doing and let our partners do the 
pushing?
    Ms. Erdberg. I would be happy to start with the first one 
particularly.
    So, I think that each and every one of the GCC partners has 
taken internal national efforts to try and address the root 
causes. Although we know that this phenomenon is very global, 
and so addressing only their own home communities is only part 
of the challenge.
    But, for instance, Kuwait has prepared a national plan to 
reinforce moderation, which is a collective interagency effort 
among many Kuwaiti parts of their executive branch, the 
Ministry of Education and Information, of Islamic Affairs and 
Youth. And they are initiating--I think it is dozens of 
initiatives at the local level that are designed to try and 
prevent youth from joining violent extremist networks.
    Oman, which doesn't get a lot of air time in this place, 
but in 2014 the Grand Mufti had published an essay calling for 
tolerance and rejecting extremism. And he has had in his weekly 
televised program, reference to those same themes pretty 
regularly.
    Qatar, as I mentioned, is a generous donor to the Global 
Community and Engagement and Resilience Fund, which is a really 
interesting way to get money into the hands of communities that 
are doing local level initiatives related to violent extremism. 
They also have instituted a number of CVE programs that are 
directed at its own citizens, particularly through the vector 
of education.
    I think that is a start on the horizon.
    Ms. Ros-Lehtinen. Thank you. And I will ask the other 
panelists. Thank you, Doctor.
    Mr. Weinberg. So there are a couple of interesting examples 
of Gulf states trying to tackle what we might consider root 
causes of terrorism. I think the UAE-backed Forum for Promoting 
Peace in Muslim Societies, and related Muslim Council of Elders 
is in part a sort of state rivalry thing with Qatar relative to 
Qatar's International Union of Muslim Scholars. But, it is also 
a countering violent extremism, countering extremist ideology 
effort.
    I mean, if you look at the Qatari-backed IUMS, this is 
Yusuf al-Qaradawi, who has previously authorized in fatwas 
attacks against Americans in Iraq. He has wished--he has 
described the Holocaust as divine punishment, and wishing for 
more of that against the Jews, but truly horrible stuff.
    The Forum for Promoting Peace in Muslim Societies had a 
Jewish-Christian-Muslim religious leaders' dialog in Washington 
a couple months ago on exactly sort of the opposite of that: 
How we can all work together in promoting more tolerant 
messaging within religious communities.
    The U.S.-UAE joint Sawab Center is specifically an 
initiative as part of the U.S.--as part of the Global Coalition 
Against ISIS. It is a center for countering the messages that 
ISIS has online.
    And if you look more broadly at Saudi Arabia's Vision 2030 
Modernization Program, I mean the general idea behind this is 
to give the youth a greater stake in their societies and 
greater opportunities to have a vibrant economic future.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Weinberg. Yes.
    Ms. Ros-Lehtinen. And, Ms. Bauer?
    Ms. Bauer. Thank you.
    Ms. Ros-Lehtinen. Should we do more or do we let others 
push?
    Ms. Bauer. So, countering violent extremism in the Gulf 
isn't a specific area of my research. But I have spent time in 
the Gulf. Lived there for 2\1/2\ years and also traveled there 
recently. And I would say that, that just in observation I have 
seen a difference in the recent efforts the Gulf states are 
taking compared to just a few years ago.
    In a recent trip to Saudi Arabia I had a chance to tour the 
ETIDAL Center with a delegation. And noticed, noted really, 
that their rhetoric had shifted to much more focus on the 
ideology as the underpinning of the issue. And really the 
violence is just a symptom of----
    Ms. Ros-Lehtinen. Moving in the right direction.
    Thank you. Excellent panelists, Mr. Poe. Thank you.
    Mr. Poe. I thank the gentlelady.
    The Chair recognizes the ranking member, Mr. Keating, from 
Massachusetts for his questions.
    Mr. Keating. Thank you, Mr. Chairman.
    You know, a person I am impressed with greatly in terms of 
his wisdom on these matters is Secretary Mattis. Recently in a 
group meeting that we had he really impressed upon all of us 
there his view of military. His view of the military is to be 
there as a foundation, a framework, and support for our 
diplomatic efforts. That it is diplomacy first, and the 
military's place is just to provide incentive and support for 
that. And that is coming from our Secretary of Defense.
    We have work to do in that regard, I believe, in our own 
country. But can you comment on that philosophy with the GCC 
states, is there any progress with recognizing the diplomatic 
side first and the military side second? Jump in anyone.
    Ms. Erdberg. I think the challenge is bigger than words. 
And I think with our defense sector, and as well as many of the 
other GCC defense sectors, the scalability of the amount of 
personnel and resources that they have devoted to the 
counterterrorism challenge is so far outweighing the amount of 
diplomats, development professionals, peace builders, and 
others who are also committed to this challenge.
    And so I absolutely agree with the Secretary on this 
premise that diplomacy first and defense second. But, when you 
look at the amount of people who are putting their brains 
toward solving this challenge, we need a little bit more of a 
right sizing in that approach as well.
    Mr. Keating. Thank you. Anyone else want to jump in?
    I will, if you are not willing, I just had another 
question. We spoke, I did my remarks, Ms. Erdberg did too, I 
think Ms. Ros-Lehtinen did too, about the role of women. Now, 
this presents a great challenge culturally in many of these 
countries, too. What progress has been made to advance that 
role, given the cultural challenges and limitations among those 
countries?
    Ms. Erdberg. I think you hit the nail on the head in your 
assessment of the challenge. I think we have seen with the new 
crown prince and the Vision 2030 in Saudi Arabia at least the 
right first steps in this direction to try and enable more of 
the population to have a stake in their own future.
    I think in other GCC partner countries, we have seen, 
again, I would characterize it as mixed progress for the role 
of women. But I think, as my co-panelist was saying in her most 
recent visit, that things are changing in terms of the 
discourse. And I think that we are hopeful to see more positive 
steps in the role of women in this discourse as well.
    I would also just add to that that, the role of women in 
national security positions in these countries would make a big 
difference into showcasing how there is a different gender role 
in the decision making apparatus as well.
    Mr. Keating. Yes. I recall being in Afghanistan and being 
part of the training for women in security and witnessing that.
    One of the concerns, though, and it was mentioned in 
testimony, is government failings, you know, really being 
incubators for unrest and terrorist activities, becoming real 
incubators, and whether it is a security failure or the 
inability to police financing, private financing for terrorism. 
How are we doing against corruption practices in that regard? 
Because that would be simply one area where that would be a 
real roadblock to better enforcement on both of those counts.
    Ms. Erdberg. On the illicit finance issue more broadly, one 
of the obstacles to acting sometimes for states is that greater 
transparency in the financial system inevitably uncovers 
corruption as well. And so, in certain countries if you are 
asking counterparts to take steps against terrorist financing, 
or money laundering, or anything else, that is one of the 
problems is that corruption can be underlying it.
    But positive steps on these issues as a whole help, you 
know, help all, raise all of the boats. So it is a worthwhile 
effort.
    Mr. Keating. Thank you. Yes, Mr. Weinberg.
    Mr. Weinberg. One of the challenges with governments in 
this region is that these are all monarchies. Right? And so 
there is a tendency to make decisions from the top down without 
a lot of regard for institutions. So in Saudi Arabia we saw a 
massive campaign against corruption in the last year. But it 
was, you know, really in a way that raised concerns about the 
extent to which there is rule of law and concerns from 
investors.
    So this is, you know, an ongoing challenge in the Gulf, as 
is the broader human rights question and the extent to which 
the U.S. is talking even about human rights as opposed to, say, 
arms sales when the President goes to the Gulf.
    Mr. Keating. Thank you for that comment. Thank all the 
witnesses for their comments. I yield back.
    Mr. Poe. I thank the gentleman from Massachusetts.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Perry, for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman.
    Dr. Weinberg, I had signed a letter sometime back asking 
for the declassification of the MOU. And I am just wondering 
what your thoughts are regarding whether that is problematic, 
and why it is problematic, or if it should be done?
    Mr. Weinberg. Ms. Bauer, did you have anything you wanted 
to----
    Ms. Bauer. This is your, you are talking about the MOU 
with----
    Mr. Perry. Regarding Qatar.
    Ms. Bauer. Regarding Qatar. So, so I don't--to my knowledge 
it is not necessarily classified. And, in fact, I had a meeting 
with Qatari officials. They invited a number of people working 
on these issues to sit down and talk with one of them. And 
there was a memorandum from that meeting that was by one of the 
Qatari consultancies that was working for them that was 
submitted as part of the FARA filing. And so there is actually 
details in there of a Qatari official describing the contents 
of the MOU.
    Mr. Perry. Have you seen our MOU?
    Ms. Bauer. I have not seen it. But as it was described to 
me by a Qatari official, it focuses primarily on increasing 
intelligence.
    Mr. Perry. Do you know anybody in Congress that has seen 
the MOU?
    Ms. Bauer. Not to my knowledge. But as I was going to say, 
my understanding is it is primarily intelligence information 
sharing and prosecutorial capacity building are the two primary 
focuses of that, and under which the idea is to forward deploy, 
you know, U.S. Government personnel who can work with Qatar to 
build their capacity to prosecute, you know, these----
    Mr. Perry. That sounds great. I just wonder if the United 
States Government, the State Department, the administration's 
concerned about, about Members of Congress divulging classified 
information in that regard because I haven't seen it and I 
don't know anybody in this place that has.
    But that having been said, let me, let me ask you this. Why 
just, why just Qatar's been singled out by its neighbors? In 
some testimony in the beginning here you talked about Kuwait 
and their harboring of terrorists. Why not Kuwait as well?
    Mr. Weinberg. Well, as you noted, you know, Qatar and 
Kuwait are the two Gulf states that have been identified as 
having the most problematic records in this regard in recent 
years. The top U.S. official for combating terror finance in 
2014 called them both out as relatively permissive 
jurisdictions for terror finance.
    In 2017, a top U.S. official, who had just retired, again 
said there were terror financiers operating openly and 
notoriously in both countries.
    And as Ms. Bauer noted in her testimony, the Kuwaitis have 
basically been able to sidestep some of this scrutiny because 
of the pressure on Qatar. The----
    Mr. Perry. Do you know how much the United States taxpayer 
spends in Kuwait? How many people, how many boots on the ground 
we have in Kuwait?
    Mr. Weinberg. I believe we have over 10,000 troops in 
Kuwait currently. It is primarily an Army access point for 
Iraq, as well as a lot of other U.S. military operations in the 
region. But that is no excuse for Qatari failure to prosecute 
terror finance using their territory.
    I mean, if you wanted to write a letter to the Embassy of 
Kuwait on this issue I think you would be free to raise some of 
these concerns.
    Mr. Perry. But why have the neighbors seemed to be 
reluctant?
    Mr. Weinberg. So, a lot of this I think comes down to 
Qatari support for the Muslim Brotherhood and related Islamic 
extremists, something that Kuwait hasn't done to such an 
extent. And something that Qatar's neighbors understandably 
view as a threat to their own national security.
    Mr. Perry. Let me ask you this, we talked at least in here 
a fair amount about countering violent extremism as it relates 
to the GCC partners or countries. Other than Islamist extremism 
what other violent extremism do they experience in their 
countries?
    Mr. Weinberg. I mean, that is, that is the main one.
    Mr. Perry. Yes. That is what my thought was. So I wonder 
why we call it violent extremism instead of Islamist extremism, 
because that is what it is. You know, they don't, they don't 
have the Ku Klux Klan there, they don't have white supremacist 
organizations, they have Islamist extremism. And I think it is 
important that we call it what it is because it is important to 
recognize the problem if you are going to solve the problem.
    I would just beseech everybody in the room that that is 
what we are dealing with here, folks. That is what it is, 
unfortunately. Nobody likes it but it is the reality of the 
matter.
    Mr. Chair, I yield.
    Mr. Poe. The Chair recognizes the gentleman from Florida, 
Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    As I said in my opening remarks, I don't see how it is 
helpful to heal the rift in the GCC if the United States takes 
sides in this conflict to say that one form of terrorism is 
worse than another. But I do think it will be helpful in the 
midst of this ongoing dispute to understand some of the 
accusations that we hear, like the Qataris are funding al-
Qaeda-affiliated groups. Or the Saudis are exporting Wahhabism 
around the world.
    What do each of those mean for our security interests? And 
are both accusations accurate? Ms. Bauer?
    Ms. Bauer. So, starting with the issue of Qatari 
individuals financing al-Qaeda, I think in the oft-cited speech 
that Chairman Ros-Lehtinen cited as well by David Cohen in 
2014, where he called Kuwait and Qatar a permissive 
jurisdiction, that was an interesting point in time where 
someone like me who follows very closely the changes in 
terrorist financing methodologies, there was a real resurgence 
in traditional forms of financing and donations coming from the 
Gulf. And these were from individuals. And they were coming via 
online platforms. This was the next generation, of kind, of the 
abuse of charities that we saw before.
    Going forward, I think that there has been an evolution not 
necessarily in the Gulf, but if you look at the recent 
indicators of the financial strength and the way that they are 
funding themselves of the downstream groups, you see that al-
Qaeda in Syria has become more self-reliant. It has embedded 
itself into the society there. And so I think that is an 
important, important point to emphasize, that even that the 
most recent U.N. report said that al-Qaeda in Syria, where a 
lot of this money was flowing, was self-sufficient. That 
doesn't mean they are not getting the funds, it just means that 
it is a different picture perhaps than it was in 2014.
    Mr. Weinberg. Okay. So, with regard to the Saudi question 
first, and the Qatari one second, so the Saudi religious 
tradition is an evangelical one. It is a proselytizing 
tradition that seeks to spread its view of a purer, more proper 
Islam. And, you know, as a country here that is founded on 
religious liberty, you know, it doesn't seem like our place to 
say whether one should or should not share their religious 
beliefs.
    But where U.S. national interests are involved is when 
Saudi religious proselytization overseas involves spreading of 
religious incitement or ideas tolerating violent extremism. 
Saudi textbooks are where that ideological challenge is most 
explicitly articulated today. So if you look at this current 
year's Saudi Government-published textbooks they teach that 
major Jewish organizations are trying to destroy--most major 
Jewish organizations are trying to destroy the Al-Aqsa Mosque 
and trying to--that Jews are trying to destroy Islam; that 
Christianity and Jews who disbelieve are the worst of all 
creatures; and that gay people, people who commit adultery, or 
people who convert away from Islam should be executed.
    So these are areas where, you know, Saudi teachings should 
probably be challenged by the U.S.
    On the Qatari question there are two parts. One is 
private----
    Mr. Deutch. By the way, it is not probably. No need to 
modify that. Go on.
    Mr. Weinberg. By all means.
    Mr. Deutch. Yes.
    Mr. Weinberg. So, you know, part of that is that 
legislation on this issue should be marked up by this 
committee. Right? On the Qatari question there are two parts 
really. One of them is private terror financing, whether the 
government is continuing to turn a blind eye to some of these 
terror financiers or finally cracking down on them and putting 
them in jail with convictions.
    The other part is reports of government-provided terror 
financing.
    So, case after case after case after case after case, 
government officials have been quoted in major news reports 
claiming that the Qatari Government has paid multi-million 
ransoms to al-Qaeda. Last year there was a reported case of an 
alleged Qatari Government ransom of nearly $1 billion between a 
Hezbollah offshoot, al-Qaeda, and other extremist groups.
    And so, you know, the biggest thing that the U.S. 
Government can do is to shine a light on this. And that means--
--
    Mr. Deutch. Dr. Weinberg, I appreciate it.
    Mr. Weinberg. Yes.
    Mr. Deutch. I want to give Ms. Erdberg just one, one--just 
if you could answer this question. Shouldn't we be equally 
concerned about anything happening in the Gulf, isn't it, that 
threatens our security interests? Shouldn't that be the 
approach no matter what country, instead of getting involved in 
the middle of this dispute, why not, why not work to protect 
our interests first?
    Ms. Erdberg. I would align myself with that. I think we 
need to be working to protect our interests first. I also think 
that a lot of the international efforts that the GCC countries 
have, have generated independently really give us a little bit 
more latitude to not have to only look at things through a 
bilateral lens.
    So I think there are over half a dozen CVE and CT 
cooperation mechanisms that involve the GCC countries, and they 
allow us to be able to work with each of the countries beyond 
just our national borders.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Poe. I thank the gentleman from Florida.
    The Chair recognizes the gentleman from Illinois, Mr. 
Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman. And thank you all 
for being here today on these important issues.
    Look, American leadership in the Middle East is extremely 
important, especially when it comes to things like combating 
terrorism. And I believe, as I have said repeatedly, that we 
are in a generational fight against terrorists. It probably 
honestly could take as long as it took to win the Cold War 
because it is going to take new generations within Islam, 
frankly, rejecting that ideology. And I believe that is it.
    But also a part of that, though, is understanding of 
tyrannical regimes like Syria. When you have an oppressive 
dictator, he actually creates an environment for terrorism to 
thrive because people feel like they don't have a voice and 
they turn to what they see as the alternative, which is, in 
many cases, radicalism. And while many of the GCC countries 
have taken steps to fight terrorism and its support at home, 
there remain a few countries who are hesitant to combat some of 
that deep-rooted terrorism.
    I do have a couple of questions if you all want to answer, 
whoever can take them, about Qatar. I spent a little time there 
as a military pilot in that base. It is an extremely important 
base for us in terms of the war. But it is well known that 
Qatar is willing to turn a blind eye to some of the nefarious 
activities in their country, in many places playing both sides, 
such as some of the fundraising networks that benefit Hamas and 
the Taliban.
    2017 some of the countries severed diplomatic ties with 
Qatar over their willingness to host Islamic scholars and 
embrace the Muslim Brotherhood movement. In response, the 
administration in Qatar signed a MOU to fight support of 
terrorism within the Qatari society.
    What should Congress and the administration be willing to 
do to ensure that the Qatari Government is upholding the MOU? 
Anybody can start.
    Mr. Weinberg. Well, it has been reported that that MOU is 
not classified. So, you know, there is--there doesn't seem to 
be a sources and methods question about whether that can be 
made public. So, instead, it is a political question.
    And, you know, if we are going to see this Gulf crisis 
resolved on terms that address some of the core concerns, if we 
are going to see terror finance effectively combated in the 
Gulf, a key part of that is having Congress and the public be 
able to debate and know whether the terms of that MOU are being 
implemented and whether the term--and what those terms cover 
and don't cover.
    I have written two monographs on Qatar and its record on 
terror finance over the years, and I can tell you case after 
case after case after case the Qataris have said to the U.S. 
Government, we are going to do things better. We are really 
serious now. We are monitoring these people. We are going after 
them. We are doing serious things.
    And then those individuals have been free again and re-
engaged in terror finance.
    So, public scrutiny and congressional accountability on 
this issue are crucial.
    Mr. Kinzinger. And so if they fail to meet the standards, 
you know, that we kind of set forth with them or in these 
agreements are we limited in our response due to the strategic 
importance of Al Udeid, or are there other options?
    Mr. Weinberg. Well, it is an excellent question. It is very 
tempting to think in all or nothing terms, to think, oh, well, 
we don't have leverage, they have leverage over us because this 
base is there and we need this base. It is an important base. 
But no base is permanent. And Al Udeid is actually a perfect 
example of that.
    Mr. Kinzinger. And it is not the only game in town now.
    Mr. Weinberg. Right. The Combined Air and Space Operations 
Center that is based at Al Udeid, the most important part about 
that base was in Saudi Arabia until 2003. And then for 
strategic other reasons we moved it.
    For those same reasons, the U.S. can keep that there, or, 
it can look at alternatives. It can move some forces out, or 
keep some forces in. And so it doesn't have to be all or 
nothing and it doesn't have to be permanent. It should be as 
long as this base is serving U.S. interests.
    Mr. Kinzinger. So, earlier this week the Saudi Foreign 
Minister said that Qatar needed to pay for American presence in 
Syria and needed to contribute forces because ``if the U.S. 
pulled out from its military base in Qatar the Doha regime will 
fall in less than a week.'' What do you make of that statement? 
Anybody?
    Mr. Weinberg. I mean that was clearly, you know, throwing a 
little bit of shade at his neighbor across the way. Right?
    Mr. Kinzinger. They like to do that sometimes.
    Mr. Weinberg. Yeah. I mean, the U.S. spoke out for Qatari 
national sovereignty at the start of the Gulf dispute last 
year. And without it there might have been concern about the 
stability or about the safety of the Qatari regime.
    Look, as you know better than most Members of Congress, 
Syria is a really, really complicated, but really important 
military problem. And this is not something that should be 
treated as a political football by actors in the region, it is 
something where we should work with them to see what they can 
do, as well as, perhaps through the Saudi Islamic military 
lines to combat terrorism, to build a legitimate, multilateral 
military contribution to help the U.S. in combating terrorism 
in Syria and beyond.
    Mr. Kinzinger. Excellent.
    Well, given my time, I will yield back. And thank you all 
for being here.
    Mr. Poe. The Chair thanks the gentleman.
    The Chair recognizes the gentleman from New York, Mr. 
Donovan, for his questions.
    Mr. Donovan. Thank you, Mr. Chairman. I just want to 
continue what Mr. Deutch was saying about protecting U.S. 
interests first.
    What is our leverage in these countries? And we are talking 
about very wealthy countries. And many times the United States 
uses things like sanctions as leverage to get other countries 
to act in a certain way. What is our leverage when you are 
talking about people or countries of such great wealth? And I 
would like to ask everyone just their opinion.
    Ms. Bauer. I would just say that we have used sanctions in 
this case to try to create leverage. And that is part of the 
popular--the public exposure of those individuals who are 
operating there who have also been--a number of whom have also 
been designated at the U.N. The idea is to build pressure on 
Qatar to act.
    And think, as the congressman was asking about the terms of 
the MOU and how to, how to hold them accountable to that, this 
list of entities or individuals that the Qataris themselves put 
out last month as part of fulfilling that MOU, it is imperfect, 
and they need to continue to work on that, and we need to 
continue to pressure them to do that.
    They also are supposed to be pursuing a number of 
prosecutions which may or may not result in convictions 
eventually. We need to help build that prosecutorial capacity. 
And we need to tell them if they are not going to result in 
convictions, that they have some other plan in order to be able 
to monitor and make sure that these individuals who have been 
identified and they no longer possibly--I don't know--be able 
to operate in, you know, in a clandestine way, that others 
don't follow behind them. But they need to build their capacity 
to do that.
    So there are things that we can pressure them to do.
    Mr. Donovan. Right. Those are great goals but how do we 
pressure them to do those things? How do we pressure them to do 
those prosecutions? How do we pressure them after those 
prosecutions to impose some type of penalty for that conduct?
    Ms. Bauer. I think that they have responded to U.S. 
pressure. My primary critique would be that they, others in the 
region have taken these issues on themselves and taken 
ownership of them. Qatar has responded to U.S. pressures. Some 
of these prosecutions were being pursued before the rift 
started. This isn't all in response to the rift. It is in 
response to being called out starting in 2014 when they were 
called a permissive jurisdiction for terrorist financing.
    Mr. Donovan. Doctor?
    Mr. Weinberg. Yeah. I think the U.S. legitimacy to speak 
about good or bad conduct in the region shouldn't be 
underestimated. The U.S. did a lot of this, especially in 2014, 
and you saw Qatar and Kuwait took notice and they started 
trying to take steps to at least make the situation look 
better.
    But, additionally, you see the importance, as Chairman Ros-
Lehtinen noted, of the State Department CT reports every year 
of country reports on what these countries are or are not 
doing. It is important information that shines light on good or 
bad practices.
    Members of Congress have also played an important role, in 
this regard, with letters. By my count, there are, I think, six 
letters from Congress to either the Executive Branch or to the 
Qatari Embassy on Hamas operations in Qatar, including signed 
by many of the members who are or have been in this room today. 
That is attention that can be helpful.
    The Export Administration Act, Section 6(j), does have 
legal requirements for dual licensing, for licensing of dual 
lease exports that these countries don't want to see themselves 
listed under. And State is legally required to list countries 
every year that allow terrorists in their territory.
    Mr. Donovan. Wonderful. Ms. Erdberg?
    Ms. Erdberg. I don't know that I have that much to add. But 
I would say that there is also some encouragement that can be 
very, very powerful, both behind closed doors through the means 
of diplomacy, but also in the types of joint military 
exercises, joint police exercises. The ways in which we 
interact with officials at all levels of government can start 
to create more of a space for holistic conversation on some of 
these issues that sometimes is able to see behavioral change at 
the same level, if not more levels, than just the transactional 
leverage and sanctions that we have.
    So I hope that we are using all of, all of the tools at our 
disposal to try and change the bad behaviors that we seek to 
correct.
    Mr. Donovan. And for some of those we would like to see 
improvement in activity, any of our allies have influence on 
them, so if they are not heeding to our demands or our 
requests, or whatever we want to phrase them as, some of our 
allies have influence on those countries that can maybe 
encourage better behavior?
    Mr. Weinberg. Absolutely. And, you know, the more the U.S. 
speaks in concert, for example, with our European allies on 
this issue it can be very effective. Additionally, 
international fora are important.
    So, if you look at U.S. designations with statements of the 
case about what terror financiers are doing in the Gulf, those 
are important, but so are U.N. terror finance designations. 
Those carry even greater authority. And the U.S. has been 
effective at getting joint designations in that regard, as well 
as joint designations with the Gulf governments.
    Additionally, the Financial Action Task Force is an 
important venue in this regard. The Trump administration is 
reportedly pressing for Pakistan to be put on a watch list for 
negligence on terror finance. That is something where U.S. 
partnership with other allies could create pressure on some 
Gulf governments as well.
    Mr. Donovan. Before my time has expired, and just for the 
record, I always take notice of what Chairwoman Ros-Lehtinen 
says.
    Mr. Poe. As you should.
    The Chair recognizes the gentleman from Virginia, Mr. 
Garrett.
    Mr. Garrett. Thank you, Mr. Chairman. And thank the members 
of the panel.
    Mr. Weinberg, is it Weinberg, pronounced correctly? You 
spoke in verbatim earlier saying that it might help moving 
forward with GCC states to give the youth, and I quote, ``a 
greater say in their societies.'' The curriculum under which 
these young people are educated, can you speak to the secular 
or non-secular nature of that and whether or not it is inherent 
in that curriculum that biases against non-prevalent 
denomination, states, et cetera might be common?
    Mr. Weinberg. I will speak to Saudi Government-published 
textbooks in this regard because that is the one where I have 
actually read a fair number of the books.
    Mr. Garrett. That is where I am going.
    Mr. Weinberg. Yes. It is a serious, serious problem.
    The Islamic State in Syria actually was using Saudi 
Government-published textbooks until, I believe, it was 2014 or 
2015 when they published some of their own. I mean, this is----
    Mr. Garrett. And who is--I know I am interrupting you, and 
not to be rude.
    Mr. Weinberg. No, by all means.
    Mr. Garrett. By the way, welcome back to the Foreign 
Affairs Committee.
    Who is the number one exporter of Arabic language textbooks 
on the planet Earth?
    Mr. Weinberg. You know that, that is a particular figure I 
am not familiar with. Saudi textbooks have----
    Mr. Garrett. Well, how about would you believe that it 
might possibly be Saudi Arabia?
    Mr. Weinberg. Yeah.
    Mr. Garrett. And is the curriculum in these books driven by 
Wahhabiist sentiment in general speaking terms?
    Mr. Weinberg. Yes. And the Saudi Government has also 
published I think it is something like 300 million copies of 
their particular commentary on the Quran, which has problematic 
language that is not necessarily in there about Christians and 
Jews.
    Mr. Garrett. Sure. And we could do this all day long but I 
have a finite amount of time.
    I spent a little bit of time in the Balkans and had 
occasion to become good friends with some local national 
Muslims who had siblings who were in schools. And primarily 
when we saw a place of worship destroyed it was an Eastern 
Orthodox or Catholic church that lay in rubble. But if it was a 
mosque, very, very frequently there was a green and white sign 
in four languages that said, ``This mosque rebuilt by the 
generous and benevolent peoples of the Kingdom of Saudi 
Arabia.''
    And one of my good friends, who is a local national, who is 
Muslim, said what they are teaching my little brothers and 
sisters is frightening. Right? And what terrible tragedy we 
witnessed in that civil war that arose in a society that was 
certainly secular enough wherein they used to hang out 
together, date, and, you know, spend time socially together. 
And this rift was created.
    My fear is that moving forward we can do all--and we need 
to do things like integrate young women into the opportunity 
network. Right? But where these things are taught 
professionally, what is the hope that in 30 years we aren't 
still encountering violent extremism emanating from GCC 
countries? It is open-ended.
    Mr. Weinberg. The first U.S. Undersecretary for Terrorism 
and Financial Intelligence wrote that capturing and going after 
terror financiers and terrorist operatives is great, but far 
more important is ending the stream of the ideology, ending the 
incitement, including in education of this sort.
    On the positive side there is a relatively new Secretary of 
the Saudi Muslim World League, which plays a big part in this 
propagation of Saudi Islamic teachings, who does seem to be 
more focused on stopping some of the radical incitement, 
hopefully. He has talked a good game on some issues.
    But on textbooks in particular, you are right, it needs to 
stop. And this is an area where, hopefully, the Saudi crown 
prince and king are moving to curtail this stuff. But until 
they do there is important legislation that----
    Mr. Garrett. Right.
    Mr. Weinberg [continuing]. You and your colleagues can co-
sponsor.
    Mr. Garrett. And I want to reiterate comments that I have 
made in this committee and other places publicly as it relates 
to arms deals between the United States and our allies, the 
Saudis, and that is that I think there is a time line that says 
2030 is the magic year in which they will have hoped to have 
addressed these problems.
    And I don't think, you know, candidly, that we need to be 
placing arms in the hands of individuals who are having an 
antithetical upbringing as it relates to the practices and 
beliefs of their neighbors. I understand that political 
consequences creates strange bedfellows, and that certainly 
there is a threat emanating from the nation of Iran, not the 
people thereof, but I would be clear on that. But that the 
Saudis need to put their proverbial money where their mouth is 
before we start sending advanced armaments to the tune of 
billions and billions of dollars.
    And that is just me editorializing.
    You spoke also to, Mr. Weinberg, ``Kuwaiti support for the 
Muslim Brotherhood,'' and this is a quote, ``and other related 
extremist organizations.'' There has obviously been some back 
and forth as it relates to the designation of the Muslim 
Brotherhood as a foreign terrorist organization, and I can 
certainly see both sides of that.
    Brookings suggests that perhaps it might make sense to 
address Muslim Brotherhood elements locally as extremist 
foreign terrorist organizations. Thoughts on that in my last 10 
seconds?
    Mr. Weinberg. So Qatar is in support of the Muslim 
Brotherhood more than Kuwait.
    Mr. Garrett. I am sorry, I may have gotten that wrong.
    Mr. Weinberg. But there is no doubt that the Muslim 
Brotherhood is an extremist group, arguably in many institutes, 
a hate group. Some of its branches have been terrorist groups.
    So it may be a lot easier to go after some of these where 
we can meet U.S. legal criteria easily, rather than this 
global, variegated network.
    Mr. Garrett. Right. There is a theory that we--and I 
understand that I am over. I will try to wrap up as quickly as 
I can.--that we shouldn't engage the Muslim Brother as a 
foreign terror organization for two reasons: Number one, they 
are so disparate in their chapters; number two, they are too 
big.
    It is exactly--that is crazy counter-logic; right? That 
there are too many adherents to the Muslim Brotherhood 
philosophy, so identifying them as an FTO would be bad. I just 
think it is interesting to flesh out with you all here today. 
And I don't want to throw out proverbial babies with the bath 
water, but I don't think we should be having this conversation 
either.
    Thank you.
    Mr. Poe. I thank the gentleman. The Chair recognizes itself 
for 5 minutes.
    Dr. Weinberg, you pointed out the big picture. We don't 
have Ambassadors in three countries that we are talking about: 
The UAE, Qatar, and Saudi Arabia. We have got to have 
Ambassadors there. It is hard to deal with another country if 
you don't have American Ambassadors.
    I have met with the Ambassadors from these three countries 
here and we have discussed many of the things that you are 
talking, or you all have been talking about. But we have got to 
have Ambassadors in these countries.
    And, of course, I am not in charge, but if I had my way we 
would have three Ambassadors in waiting right here and we could 
point you to the three countries that we have been talking 
about, and--anyway, that is not my choice. But I am just, just 
suggesting that to those who decide.
    Anyway, the countries that we are talking about, and we are 
talking about several in the Gulf, I think because they are now 
experiencing terrorist activities in their own countries they 
may see the light to coming to the table about stopping 
terrorist groups.
    The gentleman from Virginia mentioned the phrase ``hate 
groups.'' The terrorist groups we are talking about are hate 
groups. I think that is just another name for them is terrorist 
hate groups.
    To me, it is all about the money. Let's find the money.
    Now, do we know, does the United States have at its 
disposal the names, rank, and serial number of these people who 
are millionaires, bazillionaires that are sending their money 
all over the world to terrorist groups to promote hate? Do we 
know who these people are? Do we know who these people are? Do 
we know their names?
    Ms. Bauer. Yes, Mr. Chairman, the U.S. has designated as 
terrorist financiers and facilitators a number of individuals 
in Qatar, Kuwait, a number of, you know, Saudi individuals. 
Saudi Arabia has many----
    Mr. Poe. So to answer the question, we do know their names?
    Ms. Bauer. Yes.
    Mr. Poe. And we know the names that haven't been 
designated, too. There are probably other people who we know 
are involved in terrorism, we just haven't designated them yet.
    So, wouldn't it be wise that we zero in on those people, no 
matter what country they are coming from or what country they 
are being harbored in, and stop the money train from them? I 
mean, is that an unrealistic thing that we can do, Dr. 
Weinberg?
    Mr. Weinberg. You know, I think that is what the U.S. 
Treasury Department aims to do.
    Mr. Poe. But is it doing it?
    Mr. Weinberg. I think so. I will defer to the former 
Treasury official here to, you know, to give the insider 
outsider perspective though.
    Ms. Bauer. Thank you, David.
    There is a lot of challenges to doing it because there is a 
lot of different--it is a complex issue. You know, one of the 
false assumptions I think is that this money primarily flows 
through the financial system. And----
    Mr. Poe. A lot of it is cash.
    Ms. Bauer. A lot of it is cash.
    Mr. Poe. It is just being taken across the border all over 
the world and it is just hard, hard cash. Isn't that right?
    Ms. Bauer. It is either cash or some of it comes in through 
some money service businesses, kind of remittance shops, 
hawalas, exchange houses that may be----
    Mr. Poe. Fronts.
    Ms. Bauer [continuing]. Unregulated or----
    Mr. Poe. Fronts.
    Ms. Bauer [continuing]. Regulated, and it makes its way 
into the financial system that way.
    Mr. Poe. But we know that that occurs and we know who these 
people are?
    Ms. Bauer. I think there are a lot of people in the U.S. 
intelligence community and the U.S. Treasury Department focused 
on this issue and engaging in information sharing with, with 
partners in the Gulf on these issues as well.
    Mr. Poe. And let me just ask one of you, all three of you 
just one question. And, Dr. Weinberg, you have given us some 
ideas on legislation. And I think we will discuss this among 
the two committees. We may file the legislation calling these 
countries to designate certain groups like Hamas as a foreign 
terrorist organization.
    The question is, name one thing you would like to see 
Congress do about what you all have been talking about? Cut to 
the chase, Ms. Bauer.
    Ms. Bauer. So if there were one thing, okay, I will, I will 
take this opportunity to talk about the value, I think, of 
sanctions diplomacy. And I am not sure if you are aware of 
this. The Treasury Financial Attache corps is actually pretty 
small. It is usually about nine or ten people; very zero sum. 
Three of those positions right now are based in the Gulf, which 
is----
    Mr. Poe. Basically what?
    Ms. Bauer. Three of those positions, three out of the nine 
or ten Treasury attaches for the whole department are in the--
--
    Mr. Poe. The Gulf. Okay.
    Ms. Bauer [continuing]. Gulf states. One in Saudi Arabia, 
one in UAE, and one in Qatar. It is a reflection, I think, of 
the priority that is placed on this issue. But I think it is 
also an opportunity to highlight how important those 
relationships are.
    And I think that is something that Congress needs to know, 
that having people forward deployed who can engage in technical 
conversations with counterparts at central banks and ministries 
of finance is incredibly important. And I think there, there 
was addition--there were additional funds given to the Treasury 
Department this year to go toward the Terror Financing 
Targeting Center, which is the U.S.-GCC initiative. And some of 
that I think can be used to shore up the attache program as 
well.
    Mr. Poe. Okay. More money. More money to fight money.
    Ms. Bauer. Yes.
    Mr. Poe. Thank you. Dr. Weinberg, one thing?
    Mr. Weinberg. The one thing is to legislate penalties that 
will motivate governments to not host terror financiers and 
terrorist operatives. There have been some U.S. books, laws on 
the books to this effect, such as the Export Administration Act 
provision that I cited. So in those regards, pressing the 
administration to enforce the law. But also legislating in ways 
that motivate these governments to realize that it is not okay 
to host terrorists.
    Mr. Poe. Ms. Erdberg?
    Ms. Erdberg. I would say a more cohesive interagency 
approach to research. We still don't have enough empirical or 
locally based information that is getting from the hands of 
academics and research organizations into the hands of 
development practitioners, diplomats, and defense officials to 
understand how radicalization is happening and what prevents 
against it.
    Now, at USIP we host the Resolve Network, which is an 
incubated network to try and connect all these research pieces 
together. But there are huge amounts of information across the 
U.S. Government that are still not being widely shared. It is 
the completely non-classified realm. This is all about 
academic, social science, and other types of research getting 
into the hands of decision makers.
    Mr. Poe. Thank you very much. I thank all three of you for 
being here.
    I think it is imperative that the United States work with 
the Gulf states in solving this problem because we are all in 
this together.
    And I also want to thank both committees and the members 
that were here to enlighten Congress, but also the American 
public, about what is going on in the Gulf states. So this, 
these two subcommittees are adjourned.
    [Whereupon, at 3:36 p.m., the subcommittees were 
adjourned.]

                                  
                                    

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
